September 23, 2010

MARK A. MARTINEZ
DISTRICT MANAGER, MID-AMERICA DISTRICT

SUBJECT: Management Advisory Report – The Effects of the Flats Sequencing
         System on Delivery Operations – Mid-America District
         (Report Number DR-MA-10-001)

This report presents the results of our review of the Flats Sequencing System (FSS)
(Project Number 10XG006DR002). Our objective was to evaluate the effects of the
FSS on delivery operations and operating costs at selected Mid-America District
delivery units. This self-initiated audit addresses operational risk. See Appendix A for
additional information about this audit.

In October 2006, the U.S. Postal Service recommended approval to acquire, develop,
purchase, and deploy 100 FSS machines at 33 sites. FSS machines sort flat-sized mail
such as large envelopes, newspapers, catalogs, circulars, and magazines into delivery
walk sequence at high speeds and at a much higher productivity rate than the manual
process. In full deployment, the FSS is expected to produce annual operational savings
for the Postal Service. Delivery units should achieve this savings by eliminating manual
carrier casings and reducing the number of routes, resulting in reduced workhours.

Conclusion

The six Mid-America District delivery units1 reviewed have improved delivery
operations during FSS full production. These units cut operating costs by $605,788 and
reduced city carrier office hours, manual distribution clerk workhours, and city carrier
routes. Although the FSS improved delivery operations, these delivery units received
over 8.7 million flat mailpieces that were not processed on FSS. Approximately 2
million of these mailpieces were not carrier routed2 and required manual sorting and




1
    The six Mid-America District delivery units reviewed were:

 These unworked pieces must be manually sorted by the clerks and cased by the carriers. The carrier-routed
mailpieces are only handled by the carriers.
The Effects of the Flats Sequencing System on                                               DR-MA-10-001
 Delivery Operations – Mid-America District


casing to put them in delivery walk sequence. This occurred because this mail did not
meet flat mail automation requirements.3 See Appendix B for our detailed analysis of
this topic.

As a result, the Postal Service missed the opportunity to further reduce workhour costs
and, consequently, we estimated incurred unrecoverable questioned costs of
approximately $145,515 for fiscal year (FY) 2010. See Appendix C for our monetary
impact.

We recommend the district manager, Mid-America District:

1. Continue to collaborate with business mailers to ensure flat mailpieces meet
   automation requirements and reduce the amount of unworked flat mail sent to
   delivery units.

Management’s Comments

Management agreed with the finding, recommendation, and monetary impact.
Management stated they will work with the Business Service Network (BSN) to identify
mailings and mailpieces that could be altered to meet automation requirements. In
addition, management will ensure the BSN periodically sends updates on the criteria of
flat automation compatibility to their mailing community. Further, management stated
these actions will help further reduce workhour and future-incurred unrecoverable
questioned costs. Finally, management stated there will be no estimated completion
date for this corrective action, because this will be an ongoing process. See Appendix
D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and management’s corrective actions
should resolve the issue identified in the report. In subsequent discussions,
management agreed with the unrecoverable questioned costs of $145,515.




3
  Automation flats are not more than 11-1/2 inches long or more than 6-1/8 inches high, or more than 1/4 inch thick
in size. The piece should be able to bend at least 1 inch vertically without being damaged. Flat-sized mailpieces
must be uniformly thick so that any bumps, protrusions, or other irregularities do not cause more than a 1/4-inch
variance in thickness. Mailers using polywrap film or similar material to enclose or cover flat-sized mailpieces must
apply the cover in the correct direction and ensure the label is readable.


                                                          2
The Effects of the Flats Sequencing System on                      DR-MA-10-001
 Delivery Operations – Mid-America District



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Dean J. Granholm
    Elizabeth A. Schaefer
    Sylvester Black
    Alan B. Catlin
    David A. Martinez
    Corporate Audit and Response Management




                                                3
The Effects of the Flats Sequencing System on                                                  DR-MA-10-001
 Delivery Operations – Mid-America District


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In October 2006, the Postal Service approved a Phase I Decision Analysis Report
(DAR) to develop, purchase, and deploy 100 FSS machines at 33 sites. The FSS
machines sort flat-sized mail such as large envelopes, newspapers, catalogs, circulars,
and magazines into delivery sequence at high speeds and at a much higher
productivity rate than the manual process. FSS-processed mail will arrive at the
delivery unit in walk sequence order, ready for delivery by the carrier with no additional
mail movement or manual sorting required.

The Postal Service had a difficult FY 2009. Mail volume declined by approximately 25
billion pieces. Due to declining mail volume of catalogs and Periodicals mail, the Postal
Service decided to add nearly 300 ZIP Codes™ to the list of areas that FSS machines
will serve. Postal Service Headquarters officials will spread the 100 machines in
Phase I of the FSS program among 42 city locations — including new sites in Houston,
TX; Philadelphia, PA; Charlotte, NC; and Minneapolis and St. Paul, MN — rather than
among the 33 original city locations.

The FSS is a critical component of the Postal Service’s strategy to contain costs
through automating the flat mail stream. In full deployment, the FSS is expected to
produce annual operational savings of $613 million. These savings should result when
delivery units can eliminate the requirement for mail carriers to manually case flat mail.
Since mail clerks would no longer need to manually sort flats, there should be a
reduction in clerks’ workhours at delivery units. Full production of FSS began in June
2009 and 80 delivery units are currently receiving FSS-processed mail.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the effects of the FSS on delivery operations and
operating costs at selected Mid-America District delivery units. Due to staggered FSS
full production testing start dates, the selected delivery units reviewed were integrated
into the process during different months of FYs 2009 and 2010. Our audit scope
covered February 2009 to May 2010, which includes the performance period prior to
the units receiving FSS-processed mail and the performance period during which the
reviewed units received FSS-processed mail.4 See Table 1.




4
    The scope limitations are due to differences in FSS production start dates for each delivery unit.


                                                             4
The Effects of the Flats Sequencing System on                                  DR-MA-10-001
 Delivery Operations – Mid-America District



                                          Table 1. FSS Review Periods
                                Performance Months Prior to            Performance Months of
            FSS Site             Receiving FSS Mailpieces       Receiving FSS Mailpieces in FY 2010
                               April 2009 – September 2009     October 2009 – May 2010
                               February 2009 – July 2009       August 2009 – May 2010
                               April 2009 – September 2009     October 2009 – May 2010
                               April 2009 – September 2009     October 2009 – May 2010
                               April 2009 – September 2009     October 2009 – May 2010
                               March 2009 – August 2009        September 2009 – May 2010
                            Source: Postal Service Mid-America District Management

       To accomplish our objective, we:

          Statistically selected five5 FSS delivery unit locations in the Mid-America District.
           In addition, we reviewed the                           as a request from district
           management.

          Reviewed operational issues throughout the district associated with delivery
           units receiving FSS-sequenced flat mail.

          Reviewed applicable documentation, policies, and procedures such as the FSS
           DAR, dated October 20, 2006; the approved FSS Work Methods Memorandum
           of Understanding between the Postal Service and the National Association of
           Letter Carriers, dated November 24, 2008; the FSS Implementation Guide,
           Version 1, dated May 2009; and the Domestic Mail Manual, Section 300,
           Commercial Mail Flats, dated May 2008.

          Extracted and analyzed data from the Enterprise Data Warehouse (EDW)
           Delivery Data Mart for cased and FSS mailpieces, city carrier office and
           overtime workhours, carriers returning after 5 p.m., managed service scans, and
           mail distribution clerk office hours.

          Extracted and analyzed Customer Service Delivery Reporting System (CSDRS)
           Mail Condition, Curtailed and Delayed Mail, and Management Comment reports
           to determine the tracking and status of the mail as it arrives at the delivery unit.

          Extracted and analyzed CSDRS mail performance indicators from the Web
           Executive Information System (WEBEIS).

          Extracted and analyzed eFlash data to determine delivery units’ weekly
           operating reporting management system in delivery and mail processing.

          Conducted site visits at selected delivery unit locations.


5
    Our sample included
          delivery units.


                                                     5
     The Effects of the Flats Sequencing System on                                            DR-MA-10-001
      Delivery Operations – Mid-America District


            Interviewed Postal Service Headquarters, Western Area, and Mid-America
             District officials.

     We conducted this review from February through September 2010 in accordance with
     the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.6
     We discussed our observations and conclusions with management officials on August
     10, 2010, and included their comments where appropriate.

     We extracted and analyzed data from EDW, CSDRS, and WEBEIS. We assessed the
     reliability of data such as delivery performance indicators, cased and FSS flat
     mailpieces, carrier and clerk workhours, and mail condition reports by interviewing
     agency officials knowledgeable about the data. We determined that the data were
     sufficiently reliable for the purposes of this report.

     PRIOR AUDIT COVERAGE

     The (OIG) has issued eight reports and the Government Accountability Office (GAO)
     has issued one report related to our objective in the last several years.

                                                 Final
                            Report              Report           Monetary
     Report Title           Number                Date            Impact                         Report Results
Flats Sequencing         DR-AR-10-005         7/1/2010           $852,336         The report identified that Northern Virginia
System Operational                                                                District delivery units have improved
Issues                                                                            delivery operations with the FSS. These
                                                                                  units’ improvements contributed to a
                                                                                  6 month cost reduction of $196,271.
                                                                                  However, we identified several FSS
                                                                                  machines that were unavailable for
                                                                                  several months and processing issues
                                                                                  that negatively impacted delivery
                                                                                  operations. Management agreed with the
                                                                                  finding and recommendations.
Flats Sequencing          DR-AR-09-011          9/28/2009          None          The five selected Northern Virginia District
System on Delivery                                                               delivery units improved in delivery
Operation – Northern                                                             operations during the initial 6 months of
Virginia District                                                                FSS testing. Flat volumes decreased by
                                                                                 more than 50 percent during this testing
                                                                                 period, so we could not determine how
                                                                                 much of these operational gains were due
                                                                                 to implementation of the FSS. We made
                                                                                 no recommendations in this report.



     6
       These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
     Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978
     as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
     (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been
     amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                             6
      The Effects of the Flats Sequencing System on                                    DR-MA-10-001
       Delivery Operations – Mid-America District


                                               Final
                            Report            Report          Monetary
     Report Title          Number              Date            Impact                     Report Results
Flats Sequencing         DA-AR-09-012        9/4/2009           None       Although FSS machine performance has
System: First Article                                                      improved since the original test, the
Retest Results                                                             system failed to meet key statement of
                                                                           work (SOW) performance parameters.
                                                                           The Postal Service attributed FSS
                                                                           performance shortcomings to the lack of
                                                                           additional hardware and software
                                                                           solutions incorporated into the First Article
                                                                           Testing 2A system. Failure to meet SOW
                                                                           performance requirements would reduce
                                                                           forecasted savings and increase
                                                                           operational burdens. Management
                                                                           partially agreed with the finding and
                                                                           recommendation.
Flats Sequencing         CA-AR-09-006 7/1/2009                $7,733,522   This audit determined that management of
System Contractual                                                         the FSS contract process resulted in
Remedies                                                                   increased financial risk to the Postal
                                                                           Service. Management agreed with findings
                                                                           and recommendations 1 and 2 but only
                                                                           partially agreed with the finding and
                                                                           recommendation 3.
Flats Sequencing         DA-AR-09-001       12/23/2008          None       The report determined that program
System: Program                                                            management was attentive to system
Status                                                                     performance and schedule risks.
                                                                           Management agreed with the finding and
                                                                           recommendation in this report.
Management of            CA-MA-09-002 12/1/200        8         None       The report did not identify any
Contract Changes –                                                         unnecessary or inappropriate increased
Flats Sequencing                                                           costs to the Postal Service because of
System                                                                     changes to the FSS contract.
                                                                           Management agreed with the finding and
                                                                           recommendation in this report.
Flats Sequencing         DA-AR-08-006 6/4/2008                  None       The report determined the Postal Service
System: Production                                                         needed to focus greater attention on
First Article Testing                                                      workload, the First Article Testing
Readiness and                                                              schedule, and critical deliverables.
Quality                                                                    Management generally agreed with the
                                                                           finding and recommendation in this report.
Flats Sequencing         DA-AR-07-003 7/31/200        7         None       The report determined that Postal Service
System Risk                                                                Engineering needed to focus greater
Management                                                                 attention on risk management standards
                                                                           to ensure the significant risks associated
                                                                           with deployment of the FSS were
                                                                           adequately identified and managed.
                                                                           Management agreed with findings and
                                                                           recommendations 1 and 2, but disagreed
                                                                           with the findings and recommendations 3
                                                                           and 4 of this report.




                                                          7
     The Effects of the Flats Sequencing System on                              DR-MA-10-001
      Delivery Operations – Mid-America District


                                           Final
                           Report         Report         Monetary
     Report Title         Number           Date           Impact                   Report Results
Mail Delivery            GAO-09-696 7/15/200     9         None     The Postal Service has taken steps to
Efficiency Has                                                      deliver mail more efficiently, including
Improved, but                                                       adjusting delivery routes to reflect
Additional Actions                                                  declining volumes and investing in more
Needed to Achieve                                                   efficient mail-sorting technologies. This
Further Gains                                                       report addressed how the Postal Service
                                                                    monitors delivery efficiency,
                                                                    characteristics of delivery units that affect
                                                                    their efficiency, and the status and results
                                                                    of the Postal Service’s actions to improve
                                                                    delivery efficiency, in particular FSS. We
                                                                    made no recommendations in this report.




                                                     8
The Effects of the Flats Sequencing System on                          DR-MA-10-001
 Delivery Operations – Mid-America District


                             APPENDIX B: DETAILED ANALYSIS

Improvements in City Delivery

The selected Mid-America District delivery units improved their delivery operations and
reduced operating costs during the initial 6 months of FSS full production. Specifically,
we found reductions in:

         City carrier office hours.
         Manual distribution clerk workhours.
         City carrier routes.

City Carrier Office Hours

City carrier office hours declined at the selected units. In the 6 months prior to receiving
FSS-processed flat mail, city carriers used 58,285 office hours. During the initial 6
months of receiving FSS-processed mail, the number of office hours declined to 43,566
— a reduction of 14,719 hours. According to delivery unit officials, the reductions were
due to adjustments to carriers’ start times resulting from less time required to case flat
mailpieces. See Chart 1.

                                 Chart 1. City Carriers Office Hours




                                            Source: EDW




                                                 9
The Effects of the Flats Sequencing System on                            DR-MA-10-001
 Delivery Operations – Mid-America District



For the 6 months prior to units receiving FSS-processed mail, city carriers’ office hour
costs were $2,458,335. During the initial 6 months of receiving FSS-processed mail,
the office hour costs declined to $1,889,399, which resulted in a cost reduction of
$568,936. See Chart 2.

                               Chart 2. City Carrier Office Hour Costs




                                            Source: EDW

Manual Distribution Clerk Workhours

The FSS environment caused a change in the manual distribution clerks’ workload.
Manual distribution clerk workhours decreased by 1,267 hours. For the 6 months prior
to units receiving FSS-processed mail, Manual Distribution clerks used 18,473
workhours to manually sort mail at the selected delivery units compared to the 17,206
workhours they used during the initial 6 months of receiving FSS-processed mail. See
Chart 3.




                                                 10
The Effects of the Flats Sequencing System on                             DR-MA-10-001
 Delivery Operations – Mid-America District



                           Chart 3. Manual Distribution Clerk Workhours




                                            Source: EDW

For the 6 months prior to units receiving FSS-processed mail, manual distribution
workhour costs were $843,663 and during the initial 6 months of units receiving
FSS-processed mail the workhour costs declined to $806,809. This resulted in a cost
reduction of $36,854. See Chart 4.




                                                11
The Effects of the Flats Sequencing System on                               DR-MA-10-001
 Delivery Operations – Mid-America District

                        Chart 4. Manual Distribution Clerk Workhour Costs




                                            Source: EDW

City Carrier Routes

The delivery units receiving FSS mail will be the ultimate driver of the savings from
FSS processing. The savings are a result of reductions in the number of routes
based on reduced casing of flats from the FSS. For the selected delivery units
receiving FSS-processed mail, management conducted route adjustments to reduce
the number of routes from 174 to 162, resulting in the elimination of 12 city carrier
routes. See Table 2.

                        Table 2. FSS Route Adjustments for City Delivery
                                           Total City Routes   Total City Routes
                                             Before Rout          After Route
                      Delivery Unit          Adjustments         Adjustments
                                                   24                  23
                                                   34                  29
                                                   36                  34
                                                   18                  17
                                                   42                  40
                                                   20                  19
                         Totals                   174                 162
                     Source: Postal Service Mid-America District Management



                                                12
The Effects of the Flats Sequencing System on                                             DR-MA-10-001
 Delivery Operations – Mid-America District


Unworked Flat Mailpieces

These delivery units received approximately 22.9 million flat mailpieces,7 approximately
8.7 million of which could not be processed on FSS machines (see Table 3). Of the 8.7
million mailpieces, about 2 million were not carrier-routed and required both manual
sorting by the clerks and manual casing by the carriers.

                            Table 3. October 2009 – May 2010 Flat Mail Volume
                                                                                                  Total
                                Total                                                          Cased Flat
                              Delivered           Total        Other               Total       Mailpieces
                                 Flat             FSS        Sequence            Cased Flat    Not Carrier
      Delivery Unit           Mailpieces       Mailpieces     Volume             Mailpieces      Routed
                               3,244,428        1,555,407        596,611          1,092,410 353,25         0
                               6,156,253        3,463,926      1,009,091          1,683,236         621,120
                               5,176,832        2,441,331        641,290          2,094,211         353,902
                               2,139,752        1,073,252        272,337            794,163         247,960
                               4,061,731        1,664,289         72,307          2,325,135 275,06         0
                               2,071,277          904,939        460,151            706,187         131,789
          Totals              22,850,273       11,103,144      3,051,787          8,695,342       1,983,081
                                                 Source: eFlash

This condition occurred because the mail did not meet automation requirements.8 The
district manager stated that he monitors FSS operations and conducts daily
teleconference meetings with district delivery unit officials and business mailers to
discuss FSS improvements. In addition, the district manager participates in a weekly
teleconference with Western Area and Postal Service Headquarters officials to discuss
any FSS issues occurring in the field. Finally, district management is working directly
with the processing plant to identify mailpieces by type, zone, and mail arrival time to
continue to reduce the number of flat mailpieces that require manual processing.

Unworked flat mailpieces that arrive at delivery units and are not processed on the FSS
machines negatively impact delivery operations by requiring manual casing and sorting
to put the mailpieces in sequenced order for delivery. Consequently, we estimated
unrecoverable questioned costs of approximately $145,515 for FY 2010. See Appendix
C for our monetary impact.




7
  From October 2009 through May 2010, the processing facility sent 22,850,273 flat mailpieces to these six selected
units during full production. These flat mailpieces included 14,154,931 in sequenced order (11,103,144 flat
mailpieces processed on an FSS machine and 3,051,787 other sequenced flat mailpieces such as advertisement
flyers and newspapers) and 8,695,342 cased flat mailpieces.
8
  Automation flats are not more than 11-1/2 inches long or more than 6-1/8 inches high or more than 1/4-inch thick in
size. The piece should be flexible to bend at least 1 inch vertically without being damaged. Flat-sized mailpieces
must be uniformly thick so that any bumps, protrusions, or other irregularities do not cause more than a 1/4-inch
variance in thickness. Mailers using polywrap film or similar material to enclose or cover flat-size mailpieces must
apply the cover in the correct direction and ensure that label is readable.


                                                         13
The Effects of the Flats Sequencing System on                                             DR-MA-10-001
 Delivery Operations – Mid-America District


                                 APPENDIX C: MONETARY IMPACT

We estimated a monetary impact of $145,515 in unrecoverable questioned costs9 for
FY 2010. We calculated the cost savings10 based on additional labor cost incurred by
selected Mid-America delivery units due to city carriers and manual distribution clerks
casing and sorting flat mailpieces. See Tables 4, 5, and 6.

                                     Table 4. Summary of Cost Savings
                                                                                     Impact
                                  Findings                                          Category           Amount
                                                                                 Unrecoverable          $99,661
    Unworked Flats City Carriers October 2009 – May 2010                         questioned
    FY 2010 Costs for Manual Casing (see Table 5)                                costs
                                                                                 Unrecoverable              45,854
    Unworked Flats Manual Distribution Clerks October 2009 – May 2010            questioned
    FY 2010 Costs for Manual Sorting (see Table 6)                               costs
                                                                                      Total             $145,515
                                             Source: OIG Analysis




          Table 5. City Carrier Costs for Manual Casing of Flat Mail October 2009 – May 2010
                                                                    Total
                                      Total        FY 2010         Cased        FY 2010         Total         FY 2010
                                      Cased        Cost of       Unworked       Cost of        Cased          Cost of
                     FY 2010       Unworked        Casing            Flat       Casing       Unworked         Casing
                    Number of      Flat Pieces    Workhours        Pieces      Workhours     Flat Pieces     Workhours
                     Casing            (100          (100            (80          (80            (62            (62
Delivery Unit       Workhours       Percent)       Percent)       Percent)      Percent)      Percent)        Percent)
                           820         353,250        $35,792      282,600        $28,634 175,21        2      $17,753
                         1,441         621,120         62,933      496,896         50,347 308,07        6       31,215
                           821         353,902         35,858      283,122         28,687 175,53        5       17,786
                           575         247,960         25,124      198,368         20,099 122,98        8       12,461
                           638         275,060         27,870      220,048         22,296 136,43        0       13,823
                           306         131,789         13,353      105,431         10,683 65,367                 6,623
     Totals              4,601       1,983,081      $200,930      1,586,465      $160,746        983,608        $99,661
                                      Source: eFlash and OIG Analysis




9
  Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
10
   According to the DAR for the FSS program, delivery units should expect to capture an 85 percent savings rate for
city carriers and an 80 percent savings rate for manual distribution clerks; we used the lower percent to be
conservative in our estimates. We based the calculated savings on a carrier productivity rate of 431 flats per hour
and clerk productivity of 1,006.25 mailpieces per hour. The manual distribution clerk calculation does not consider
carrier route mailpieces because the piece count is not available. Calculations used FY 2010 wage rates.



                                                        14
The Effects of the Flats Sequencing System on                                    DR-MA-10-001
 Delivery Operations – Mid-America District



 Table 6. Manual Distribution Clerk Costs for Manual Sorting of Flat Mail October 2009 – May 2010
                                                               Total                    Total
                                  Total                       Cased      FY 2010       Sorted       FY 2010
                                 Sorted                      Unworke     Cost of     Unworked       Cost of
                  FY 2010      Unworked      FY 2010 Cost     d Flat     Casing          Flat       Sorting
                 Number of     Flat Pieces     of Sorting     Pieces    Workhours    Mailpieces    Workhours
                  Sorting          (100       Workhours         (80        (80           (62          (62
Delivery Unit    Workhours      Percent)     (100 Percent)   Percent)    Percent)     Percent)      Percent)

351                               353,250         $16,468     282,600 $13,1     74 175,2      12       $8,168
                        617       621,120          28,956 496,8    96       23,165       308,076      $14,362
                        352       353,902          16,498 283,1    22       13,199       175,535       $8,183
                        246       247,960          11,560 198,3    68        9,248       122,988       $5,734
                        273       275,060          12,823 220,0    48       10,258       136,430       $6,360

   131                            131,789          6,144     105,431 4,915               65,367        $3,047
   Totals              1,970    1,983,081        $92,449   1,586,465       $73,959      983,608       $45,854
                                    Source: eFlash and OIG Analysis




                                                    15
The Effects of the Flats Sequencing System on              DR-MA-10-001
 Delivery Operations – Mid-America District



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                16
The Effects of the Flats Sequencing System on        DR-MA-10-001
 Delivery Operations – Mid-America District




                                                17
